 Additional Copies

 To obtain additional copies of this audit report, contact the Secondary Reports
 Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Planning and
 Coordination Branch of the Analysis, Planning, and Technical Support Directorate
 at (702) 604-8939 (DSN 664-8939) or FAX 604-8932.        Ideas and requests can
 also be mailed to:

               Inspector General, Department of Defense
               OAIG-AUD (ATTN: APTS Audit Suggestions)
               400 Army Navy Drive (Room 801)
               Arlington, Virginia 22202-2884

 Defense Hotline

 To   report   fraud,   waste,   or   abuse,   contact   the   Defense   Hotline   by   calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
 or by writing the Defense Hotline, The Pentagon, Washington D.C. 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

DFARS                   Defense Federal Acquisition Regulation Supplement
ICP                     Inventory Control Point
